<html>
<title> - OVERVIEW OF U.S. INTERESTS IN THE WESTERN HEMISPHERE: OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
OVERVIEW OF U.S. INTERESTS IN THE WESTERN HEMISPHERE: OPPORTUNITIES AND 
                               CHALLENGES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2013

                               __________

                           Serial No. 113-13

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
79-582                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
TREY RADEL, Florida                  ALAN GRAYSON, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Roberta S. Jacobson, Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State...........    12
The Honorable Mark Feierstein, Assistant Administrator, Bureau 
  for Latin America and the Caribbean, U.S. Agency for 
  International Development......................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Matt Salmon, a Representative in Congress from the 
  State of Arizona, and chairman, Subcommittee on the Western 
  Hemisphere: Prepared statement.................................     3
The Honorable Albio Sires, a Representative in Congress from the 
  State of New Jersey: Prepared statement........................     7
The Honorable Roberta S. Jacobson: Prepared statement............    15
The Honorable Mark Feierstein: Prepared statement................    21

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina: Prepared statement....................    56
The Honorable Theodore E. Deutch, a Representative in Congress 
  from the State of Florida: Prepared statement..................    58
Written response from the Honorable Roberta S. Jacobson to 
  question submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey.........................................................    59
Written responses from the Honorable Roberta S. Jacobson to 
  questions submitted for the record by the Honorable Jeff Duncan    63
Written responses from the Honorable Mark Feierstein to questions 
  submitted for the record by the Honorable Jeff Duncan..........    76


                   OVERVIEW OF U.S. INTERESTS IN THE 
                   WESTERN HEMISPHERE: OPPORTUNITIES
                             AND CHALLENGES

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2013

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. A quorum being present, the subcommittee will 
come to order.
    I will start by recognizing myself and the ranking member 
to present our opening statements, then I will recognize the 
members of the subcommittee to allow them to present their 
opening remarks, if they have any, in order of seniority, and 
please keep your remark to 1 minute. Now I would like to yield 
myself as much time as I may consume to present my opening 
statement.
    Good morning, and welcome to our first hearing of the 
Subcommittee on the Western Hemisphere, where we will be 
exploring the opportunities and challenges the U.S. faces in 
the region.
    When I returned to Congress this year, I was privileged to 
rejoin the Foreign Affairs Committee and honored to have been 
given the gavel of the Subcommittee on the Western Hemisphere. 
As a native Arizonan, I know what many of my colleagues have 
yet to realize: Our neighbors in the Western Hemisphere are 
critical to U.S. security, energy independence, and economic 
prosperity. I believe that our strong cultural, trade, and 
investment relationships and demographic ties with Canada and 
the Americas connect the region and open the way to a 
constructive dialogue on how we can make our hemisphere safer 
and more prosperous.
    First of all, let me welcome the subcommittee's 
distinguished new ranking member, Congressman Albio Sires, who 
represents the Eighth Congressional District of New Jersey. I 
look forward to working with you on a bipartisan basis to help 
foster positive results for U.S. Foreign policy in the region.
    In addition to our senior members of the committee, it is 
my pleasure to give a warm welcome to our freshman majority 
members. We have got Trey Radel here today from Florida. We 
also have a new freshman member, I believe will be joining us 
later, Ron DeSantis, both of whom hail from the great State of 
Florida. And although not new to Congress, I would like to 
welcome two new additions to the subcommittee on the minority 
side of the aisle. Theodore Deutch, and Alan Grayson are also 
both from the great State of Florida.
    It is my firm belief that we have an opportunity to 
positively engage our friends and neighbors in the hemisphere 
not only on the security issues as we work together to combat 
transnational criminal and terrorist organizations, but in 
strengthening bilateral and multilateral relationships that 
promote democratic values and free-market principles.
    I am looking forward to the opportunity to take a closer 
look at the process being made under the Merida Initiative to 
determine if there are ways to make the program more effective.
    Insecurity in Mexico and throughout Central America 
continues to threaten our own security, and I believe it is in 
the U.S. national interest to promote a safer and more secure 
region.
    I also plan to make sure this subcommittee does everything 
in our power to foster and build upon our strong relationship 
with Canada, with whom we already maintain the world's largest 
bilateral trade relationship.
    Our subcommittee will also focus attention on the 
incredible opportunity we have to achieve energy security and 
economic growth in North America by encouraging the 
administration to give its final approval to the Keystone XL 
pipeline. In addition, I will seek to promote energy 
independence and economic growth by seeking to promote and 
strengthen U.S. trade relations with Mexico and by supporting 
the U.S.-Mexico transboundary agreement that was signed in 
February of last year.
    I hope to see that the United States will reinsert its role 
in promoting hemispheric free trade policies, strengthening 
trade and investment relations in Brazil and throughout the 
entire region.
    Lastly, we must not forget the key economic role of travel 
and tourism in the region, especially in the Caribbean, and the 
importance of limiting the negative effects that transnational 
crime can have on regional economies.
    We do face some challenges. The subcommittee will continue 
to press for sound U.S. policy on Cuba, one that is committed 
to a real and meaningful democratic transition on an island 
that has been plagued by a repressive government at odds with 
regionally held values of economic and individual liberties.
    In Venezuela, we will continue to monitor Venezuelan ties 
with Iran and Hezbollah, and will encourage the Obama 
administration to continue focusing the Intelligence 
Community's efforts on monitoring the threat of Iranian 
influence in our region. Mindful of the post-Chavez transition, 
the United States should be engaged in strengthening democratic 
institutions in Venezuela, and supporting free and fair 
elections.
    I want to thank our witnesses for agreeing to appear before 
the subcommittee today. The Honorable Roberta Jackson, 
Assistant Secretary of State for the Bureau of Western 
Hemisphere Affairs; and The Honorable Mark Feierstein, 
Assistant Administrator for the Bureau of Latin America and the 
Caribbean for the U.S. Agency for International Development. We 
look forward to hearing your testimony and insights from the 
region.
    [The prepared statement of Mr. Salmon follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Now I will recognize my colleague Albio Sires, 
the ranking member, for his opening remarks.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing, and thank you, and thank you for the witnesses for 
being here today.
    I want to express my appreciation to you, Mr. Chairman, for 
reaching out earlier this week and meeting with me to discuss 
how we can work together. We share many of the same concerns 
and aspirations for the Western Hemisphere, and I feel 
encouraged by our similar desire to achieve meaningful results 
in a constructive, bipartisan manner.
    Additionally I commend you, Mr. Chairman, in setting the 
theme of this, our first hearing for this subcommittee, and 
recognizing that while there are many challenges facing the 
hemisphere, there are, indeed, many opportunities as well that 
we can capitalize on. And so I look forward to working with 
you, and the members of the subcommittee to address and 
overcome our Nation's most pressing issues in the hemisphere.
    I believe it is fair to acknowledge that since 9/11, our 
foreign policy has focused on the crises emanating from the 
Middle East, Asia, and back again. While certainly 
understandable, this focus has come at the detriment of our 
policies toward the Americas. Unfortunately, we have not paid 
appropriate attention to an area that is right next door.
    Some analysts have likened our foreign policies toward 
Latin America as adrift and far too narrow in scope. I agree 
that as the problems have arisen, our responses have been 
reactive rather than proactive. And while I commend the strides 
that have been made in the areas of the democracy and 
development at the country level, we have yet to articulate a 
strategic, cohesive policy for the region as a whole. A 
patchwork of initiatives is insufficient and unsustainable for 
a region that is rapidly evolving and that is today second to 
Asia, amongst the most economically vibrant regions in the 
world.
    Economically the U.S. accounts for roughly 40 percent of 
the region's imports and exports valued at nearly $400 billion 
and $450 billion, respectively. Canada is our number one 
trading partner; Mexico a close third after China; and the rest 
of Latin America combined is fourth. Yet today China has become 
the largest trading partner for some of Latin America's largest 
economies. From 2000 to 2009, annual trade between China and 
Latin America grew more than 1,200 percent, from $10 billion to 
$130 billion. Russia has increased its own sales with Venezuela 
and now Brazil, and Iran continues to expand its influence.
    I am concerned of the Argentina's joint truth commission 
with Iran to investigate the horrific bombing of the Jewish 
Community Center, and its continued harassment of the Falkland 
Islands is worrisome.
    I remain determined to maintain pressures on Cuba's 
authoritarian regime, expose its continued human rights and 
press for freedom--and press freedoms violations, and press for 
the release of Alan Gross, a U.S. citizen.
    While I am hopeful for the day of a post-Castro Cuba, I 
remain vigilant on a possible post-Chavez Venezuela. Venezuela 
is our 14th largest trading partner, with $56 billion in trade 
during 2011; thus, the fate of Venezuela is critically 
important to us. If Chavez dies, we must be ready to work with 
the allies in the region for a peaceful transition of power and 
support the citizens' of Venezuela demand for democracy and 
constitutional accountability.
    As you know, Colombia is our strongest regional ally. I am 
closely following the peace talk negotiations of President 
Santos with the FARC. If successful, Colombia will free itself 
from a long-standing obstacle to peace and economic prosperity. 
I believe that we should continue to lend our support to 
Colombia now and especially after the fate of the negotiations.
    While overall security conditions have improved in 
Colombia, the levels of insecurity and corruption that has 
plagued weak Central America nations like Honduras and El 
Salvador is very troubling. In light of the declining foreign 
aid levels, I am particularly worried to ensure that money 
spent is simply not encouraging corrupt practices and acting as 
a rubber stamp to governments that treat America's firms 
unfairly.
    In regards to Mexico, I am waiting to see how determined 
President Pena Nieto will be in combating drug trafficking. In 
this regard I am looking forward to discussing the result of 
the Merida, the Central America Regional Security Initiative, 
and the Caribbean Basin Security Initiative programs and the 
implications that imminent spending cuts may have on their 
effectiveness.
    Our foreign policy with the Western Hemisphere has to be 
both relevant and practical to the needs of everyday people. 
Geographic proximity alone cannot dictate the importance of our 
relationship and the relationships we have with our southern 
neighbors.
    The region has made significant political and economic 
advances; however, the lack of inclusive participation by all 
members of society in the growing economic prosperity of the 
region has made the Americas vulnerable to antidemocratic 
forces. I look forward to working with the chairman to advance 
these important U.S. regional interests and discussing with our 
witnesses how we can better address these concerns. I am 
hopeful that together we can work together to ensure these 
challenges do not overshadow the opportunity that lies before 
us.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you, Mr. Sires.
    [The prepared statement of Mr. Sires follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. The Chair now recognizes the gentleman from 
Florida Mr. Radel for a 1-minute opening statement.
    Mr. Radel. Thank you, Mr. Chairman, Ranking Member Sires. 
Thank you so much. It is great to be here on the Western 
Hemisphere.
    In my previous life I was a journalist, so I have traveled 
extensively all over the Western Hemisphere, Canada, its 
majestic cities. In order to learn Spanish, I strapped on a 
backpack as a young man, traveled around Mexico, parts of Latin 
America, where I have a deep, deep affinity for.
    We do have challenges, but today in moving forward, I am 
really excited to focus on the tremendous opportunities that we 
have culturally, economically, all over the Western Hemisphere, 
Colombia in particular; just such a shining example of how we 
can work together where foreign aid plays such an important, 
important role.
    So it is great to be here. I just hope that we can use the 
information today to ensure that we in the United States have 
kind of a comprehensive strategic plan moving forward to again 
face those challenges, but, most importantly, the tremendous 
opportunity for partnership and growth.
    Thank you.
    Mr. Salmon. Thank you, Mr. Radel.
    The Chair now recognizes the gentleman from New York Mr. 
Meeks, and a heck of a traveling companion.
    Mr. Meeks. Thank you, Mr. Chairman, and I am delighted to 
work with you, and look forward to working with you in the 
113th Congress and Ranking Member Sires as we move forward on 
the Western Hemisphere.
    And I know this morning and throughout the 113th Congress, 
we are going to be talking about some issues like our great 
relationship with Canada, and how we move forward with them and 
continue that trade arrangement and agreement; that we are 
going to be dealing with hot-button issues. We will hear about 
the rise of China's influence and developments in Cuba or the 
lack thereof. We will hear about Venezuela, and Hugo Chavez, 
and the status of that nation. We will hear about Iran's 
influence, I am sure, and migration, and drugs, and violence, 
and energy, and environmental concerns, and trading.
    We are going to hear a lot and we are going to be able to 
do a lot, I think, on this committee. But I hope that as we go 
down this long list of important issues, we also spend a 
significant amount of time speaking about the plight of Afro 
descendants and indigenous communities in the region.
    I strongly believe that progress, real progress, on matters 
of mutual interest with regional partners, it is not possible 
unless we address the inequality, the violence, the disparity, 
and the discrimination that these often isolated and 
marginalized groups experience. We cannot see progress if 
millions in our hemisphere do not see a way out of abject 
poverty, don't have access to quality education, and have no 
hope that they can move beyond the station of life in which 
they have been born.
    Our witnesses today have outlined in their written 
testimony areas of focus for the Obama administration promoting 
inclusive economic growth, increasing citizen security, 
promoting clean energy and democracy. Those are indeed all 
critical areas of interest to the United States. Notably they 
are also areas that intersect with the needs of Afro 
descendants and indigenous communities.
    Our Nation's objectives and the desire of nations in the 
region for greater security and economic and global advancement 
are all critically linked to these communities, and I have 
visited the remote areas of Colombia, for example, where drug 
traffickers, FARC, and paramilitary gangs prey on the 
geographically isolated Afro Colombians and indigenous 
communities that have little means of protection and 
alternatives. In nations where the situation is dire for all 
citizens, like the Honduras, for example, it is almost always 
more dire for indigenous and Afro Latino persons.
    I would like to submit, Mr. Chairman, for the record, an 
OAS report entitled ``The Situation of People of African 
Descent in the Americas.'' The inequalities and disparities are 
too many to enumerate in my opening remarks, but this report 
highlights the major obstacles in the advancement that remain. 
And I hope that with today's hearing and as we move forward 
during this 113th Congress, that we discuss what must be done 
to adequately address the many issues that plague disadvantaged 
groups whose status in society is so critically linked to our 
own interests and our Nation.
    Mr. Salmon. Thank you. Without objection, this will be 
entered into the record.
    [Note: The OAS report submitted for the record, ``The 
Situation of People of African Descent in the Americas,'' is 
not reprinted here but is available in committee records or on 
the Internet at
http://www.oas.org/en/iachr/afro-descendants/docs/pdf/AFROS_
2011_ENG.pdf. (Accessed 4/17/13.)]
    Mr. Salmon. The Chairman now recognizes the gentleman from 
American Samoa Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, thank you so much for 
calling this hearing. I certainly want to commend you and our 
ranking member Mr. Sires for putting this hearing together.
    I do want to associate myself with the comments made 
earlier by our ranking member as well as my colleague from New 
York, Mr. Meeks.
    And I would like to extend a warm welcome to our witnesses 
this morning, Ms. Jacobson and also Mr. Feierstein.
    Historically, Mr. Chairman, the United States, with much 
success, has focused its attention on developing and 
strengthening local economies, security, energy, education, and 
democratic governments. However, a demographic that is 
continually overlooked in the Western Hemisphere, which 
includes Canada, by the way, is the indigenous community.
    Tens of millions of indigenous people suffer from the 
consequences of historic injustice, including colonization, 
dispossession of their lands and resources, oppression and 
discrimination, and a lack of autonomy. Their right to 
development has been largely denied by colonial and even modern 
states in the pursuit of economic growth. As a consequence, 
indigenous peoples often lose out to more powerful actors, 
becoming among the most impoverished groups throughout Latin 
America, as I say, which includes Canada, somewhat of the same 
challenges that were faced in our treatment of the indigenous 
Native Americans here in the United States. They live shorter 
lives. They have poor health care and education, endure higher 
unemployment rates, and are victims of increasing violent 
crimes and, as I said earlier, alienation of their native 
lands. The benchmark of our success in this region must include 
those who originally occupied these lands.
    I look forward to working with the members of our 
subcommittee, and also look forward to hearing from our 
witnesses if they by chance--and by the way, I did have a 
chance to review the statements of our witnesses, and 
unfortunately, I was not able to find anything relative to my 
concerns about how we are looking at the needs of indigenous 
populations throughout the Western Hemisphere.
    Thank you, Mr. Chairman. I yield back.
    Mr. Salmon. I thank the gentleman.
    And now, pursuant to rule 7, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record. Without objection, 
the hearing record will remain open for 14 days to allow 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    Now I would like to introduce the witnesses. First I would 
like to introduce the Honorable Roberta S. Jacobson. Roberta S. 
Jacobson was sworn in as Assistant Secretary of State for 
Western Hemisphere Affairs on March 30th, 2012. Previously Ms. 
Jacobson was the Acting Assistant Secretary since July 18, 
2011. She served as Principal Deputy Assistant Secretary for 
the Western Hemisphere Affairs from December 2010 until July 
2011, with responsibility for regional, political, and economic 
issues; management and personnel; and regional security issues. 
From June 2007 until that date, she was Deputy Assistant 
Secretary for Canada, Mexico, and NAFTA issues in the Bureau. 
She served as the Director of the Office of Mexico Affairs from 
December 2002. From 2000 to 2002, she was Deputy Chief of 
Mission at the U.S. Embassy in Lima, Peru, and between 1996 and 
2000, Ms. Jacobson was Director of the Office of Policy 
Planning and Coordination in the Bureau of Western Hemispheric 
Affairs, covering issues such as civil/military relations, 
human rights, foreign assistance, and counternarcotics 
throughout the hemisphere.
    Ms. Jacobson has also served as Coordinator for Cuban 
Affairs within the Bureau of Western Hemisphere Affairs; 
executive assistant to the Assistant Secretary, 1993 and 1994; 
special assistant to the Assistant Secretary, 1989 to 1992; and 
the National Security Council, 1988.
    Ms. Jacobson holds a master's of arts in law and diplomacy 
from the Fletcher School of Law and Diplomacy--in 1986 she got 
that degree--and a bachelor of arts from Brown University.
    I would also like to introduce the Honorable Mark 
Feierstein. Mark is Assistant Administrator for the Bureau of 
Latin America and the Caribbean. He previously served as the 
principal and vice president of the international polling firm, 
Greenberg Quinlan Rosner. He has overseen public opinion 
research in over 30 countries, gaining insights into the views 
of citizens around the world on a whole range of topics.
    Before joining Greenberg Quinlan Rosner, Feierstein served 
as Director of USAID's Global Elections Office. He also worked 
in the State Department as a special assistant to the U.S. 
Ambassador to the Organization of the American States, where he 
negotiated with diplomats from the Americas on an array of 
regional issues.
    Prior to that he was director for Latin America and the 
Caribbean at the National Democratic Institute for 
International Affairs, overseeing programs to strengthen 
democratic institutions in developing countries.
    He is fluent in Spanish, has worked as a journalist in the 
United States and in Mexico, has published articles on 
international issues for leading major newspapers and journals. 
He received his B.A. magna cum laude from Tufts University, and 
his M.A. from Fletcher School of Law and Diplomacy.
    I would like to say that it is obvious from these terrific 
resumes that we have professionals in every sense of the word, 
and we are just thrilled to be working with you, excited. I 
look at my colleagues on both sides of the aisle, and I am 
really excited. I think we have got a true bipartisan group 
here that is more interested in furthering U.S. interests than 
in a partisan squabbling. I am very excited about that. I think 
we have got a wonderful group. I think we have wonderful 
leaders to help guide us through.
    Let me explain the lighting system real quick. I am going 
to explain the lighting system in front of you. I know I 
probably don't need to, you have done it many times, but they 
tell me I got to do it, so I am going to do it.
    You will each have 5 minutes to present your oral 
statement. When you begin, the light will turn green; when you 
have 1 minute left, the light will turn yellow; and when your 
time is expired, the light will turn red. I ask you conclude 
your testimony when the red light comes on.
    After all witnesses testify, all members will have 5 
minutes to ask questions, and I urge my colleagues to try to 
stick to the 5 minutes to ask questions. I would like to give 
everybody the opportunity to ask the questions that they have.
    So let us begin. I would like to start with Assistant 
Secretary Jacobson, and you are recognized. Thank you.

   STATEMENT OF THE HONORABLE ROBERTA S. JACOBSON, ASSISTANT 
     SECRETARY, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Jacobson. Thank you, Chairman Salmon, and Ranking 
Member Sires, and members of the committee. It is a real 
privilege to be back in front of this subcommittee, and I 
really look forward to working with all of you, old and new 
members. I am very grateful for this subcommittee's abiding 
support for the administration's efforts to take advantage of 
the opportunities we see in the Western Hemisphere.
    U.S. relations with our neighbors are on a positive 
trajectory. We have fulfilled President Obama's commitment at 
the 2009 Summit of the Americas by pursuing constructive, 
balanced partnerships. We focussed on four areas: Fostering 
inclusive economic growth, increasing citizen security, 
promoting clean energy, and strengthening democracy.
    In the past 15 years, 56 million households in the region 
have joined the middle class. Over 40 percent of U.S. exports 
go to the Western Hemisphere, more than any other region of the 
world. We are working to increase those numbers through trade 
promotion agreements with Colombia and Panama. Last summer 
Canada and Mexico joined the Trans-Pacific Partnership 
negotiations, which also include Chile and Peru. We hope to 
conclude these negotiations as quickly as possible. These 
developments translate into more jobs, better and cheaper goods 
and services, and rising prosperity on Main Streets across the 
United States.
    However, in some countries policy reforms are needed to 
accelerate economic expansion and create greater opportunity to 
make sure that prosperity is more widely shared, and that is a 
shorthand way of talking about vulnerable populations, such as 
Afro descendants, indigenous, women, LGBT persons.
    In order to counter the threat posed by criminal gangs and 
violence, we have expanded and linked our four citizen security 
programs, the Merida Initiative, the Central American Regional 
Security Initiative, the Caribbean Basin Security Initiative, 
and the Colombia Strategic Development Initiative. Through a 
whole-of-government approach, we are focusing on institution 
and capacity building, while encouraging economic development.
    U.S. assistance has helped create a dramatically improved 
security situation in Colombia. In Mexico, our partnership with 
President Pena Nieto's administration is off to a strong start, 
with both sides committed to addressing crime and violence 
through durable, long-term cooperation. We are partnering with 
Colombia and Mexico and others to help Central America address 
its security challenges.
    Today I would like to highlight three particular areas of 
challenge and opportunity: Energy, education, and the defense 
of democracy.
    The Western Hemisphere is increasingly a global supplier of 
energy. Companies and entrepreneurs who never focused on the 
region are waking up to its enormous potential. At the 2012 
Summit of the Americas, the United States and Colombia launched 
Connect 2022, a hemispheric initiative to provide universal 
access to affordable electricity within a decade. This 
complements President Obama's Energy and Climate Partnership of 
the Americas in which we and 33 other partners promote 
efficiency, encourage renewable energy, and support adaptation 
and mitigation to climate change.
    Education really underpins all of our goals in the 
Americas. Expanding educational opportunities is crucial to 
ensuring all citizens share in the region's prosperity. That is 
why President Obama launched 100,000 Strong in the Americas to 
increase educational exchanges between the United States and 
Latin America and the Caribbean to 100,000 in each direction 
each year. To meet that goal we must double the current flow of 
students at a time when our own budget constraints--our own 
budget constrains us. So we are partnering with academic and 
private-sector institutions to meet that goal.
    Our commitment to true partnership and shared 
responsibility calls for an honest reexamination of areas where 
this hemisphere once led, but now falters. In some countries, 
populist leaders who are impatient with or even disrespectful 
of democracy's processes are closing down and subjugating 
independent media and seeking to control courts and 
legislatures. The leaders of many of today's democracies in the 
Americas were fighting for these rights not so long ago.
    We are working through the Origination of American States 
to protect freedom of expression. We will continue to seek out 
to defend strong, independent institutions of democracy.
    In sum, our policy of partnership and shared responsibility 
has produced real progress. Although positive news stories 
rarely make the front page, they abound in the Americas, where 
inclusive economic growth is transforming the region, and 
several of our partners are emerging as real players on the 
global stage.
    There is, of course, a great deal more to do to foster the 
peaceful, prosperous, and democratic hemisphere we all want to 
see and ensure everyone is part of that prosperity. But I look 
forward to working with you and other members of this committee 
to advance U.S. interests in the hemisphere.
    Thank you very much.
    Mr. Salmon. Thank you, Assistant Secretary Jacobson.
    [The prepared statement of Ms. Jacobson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. The Chair will now recognize Administrator 
Feierstein.

     STATEMENT OF THE HONORABLE MARK FEIERSTEIN, ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Feierstein. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member, and members of the committee, 
I am grateful for your interest in USAID and pleased to have 
the opportunity to discuss the Obama administration's 
development policy in the Americas.
    I am also honored to be testifying with my good friend and 
former graduate school classmate Roberta Jacobson. You know, 
back in grad school when a professor posed a tough question, I 
would generally defer to Roberta. I suspect, though, that 
approach might not fly with the panel today or, for that 
matter, with Roberta.
    Mr. Chairman, I have submitted my full written statement 
for the record and will now share a condensed version, if I 
may.
    Early in his first term, President Obama reminded us that 
the purpose of development is to help countries reach the point 
at which they no longer need foreign assistance. In much of 
Latin America and the Caribbean, we are on our way to achieving 
our goal of largely graduating countries from foreign 
assistance by the year 2030.
    The days in which USAID provided direct assistance in the 
region are largely over. Today our principal role is to 
strengthen the capacity of countries to provide for their own 
people, and USAID is employing new approaches to accelerate 
this process.
    Historically USAID has hired large contractors to provide 
assistance. Today we are channeling more resources through 
institutions in foreign countries so that we leave behind 
entities equipped to oversee development programs on their own.
    The most important source of development funding for nearly 
every country is not donors, but internally generated revenue. 
That is why we are instituting programs to help governments 
raise their own funds for development.
    The private sector is also adding its financial muscle and 
business expertise to promote development. USAID is 
increasingly partnering with companies to enhance our 
assistance and deliver long-term development dividends.
    As we succeed in creating the conditions under which 
foreign assistance is no longer necessary, the family of donor 
nations will grow. Countries where USAID made significant 
investments in the past, such as Chile and Brazil, are now 
collaborating with us in third countries.
    Just as our approach to development has changed, the nature 
of the development challenge in the Americas has evolved as 
well. Continued economic and democratic progress is now impeded 
in many countries by violence and criminality. Reducing crime 
and violence requires a range of tools. The government 
increasingly recognizes the importance of prevention programs 
and investments in youth and communities.
    USAID is helping countries to draw on lessons from U.S. 
cities that have been so successful in reducing crime. Last 
year the USAID Administrator, Rajiv Shah, signed an agreement 
with Los Angeles mayor Antonio Villaraigosa to train Central 
American officials on methods that have worked in L.A.
    In South America, Peru and Colombia face security 
challenges of their own. In Colombia, our effort to help the 
government defeat guerilla groups and reduce drug production 
now includes helping the Santos administration implement 
historic land reforms and compensate victims of the conflict. 
In Peru, we are working with the government to expand a 
successful program that has helped coca farmers transition to 
legal crops.
    As violence and criminality emerge as threats to democracy, 
there are still traditional practices being employed to 
undermine it. To protect democracy we are ramping up our 
support for a wider cross-section of local civil society 
organizations.
    We carry out such initiatives because, as President Obama 
declared, ``Our interests and our conscience compel us to act 
on behalf of those who long for freedom.'' In the Americas 
nowhere is that longing for freedom more suppressed than in 
Cuba. Today in Cuba, the government not only imprisons Cubans 
who try to exercise basic rights. Alan Gross, a U.S. citizen, 
has languished in a Cuban jail for more than 3 years for 
helping people to access the Internet.
    Elsewhere in the Caribbean, hopes are rising despite 
considerable challenges. Haiti, where USAID invests the most 
resources in the Americas, is making progress in building back 
from the earthquake. Rubble has largely been cleared, the 
number of people living in tent camps has fallen substantially, 
and a new industrial park has opened.
    USAID is implementing programs to create jobs and boost the 
standard of living in Haiti. As we implement our programs, we 
will increasingly rely on Haitian institutions to carry out the 
work to help the country reach the point where it can lead and 
finance its own development.
    Haiti is particularly vulnerable to a phenomenon that 
threatens every country: Global climate change. In Haiti and 
elsewhere, we support political and business leaders to reduce 
and adapt to the effects of climate change.
    Mr. Chairman, this agenda may sound ambitious, but it is 
also achievable. Never before have governments, private-sector 
companies, and civil society in the region been as willing and 
well equipped to partner with us on these issues of mutual 
interest.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Feierstein follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. Thank you both very much. I would like to now 
yield myself 5 minutes to ask my questions, and then we will 
proceed with those that arrived in order of attendance along 
with seniority.
    Assistant Secretary Jacobson, you mentioned in your 
testimony that the administration hoped to conclude 
negotiations in the Trans-Pacific Partnership expeditiously, 
and I hope that is the case. Can you tell us, though, how, if 
at all, will the negotiations for our Trans-Pacific Partnership 
affect the rules governing NAFTA? Could you submit that in 
writing, and maybe not answer it right now? Maybe just submit 
that in writing, because I do have a couple of other questions 
maybe I would like to get to.
    [The information referred to follows:]

  Written Response Received from the Honorable Roberta S. Jacobson to 
     Question Asked During the Hearing by the Honorable Matt Salmon

    The inclusion of Canada and Mexico in the TPP provides the United 
States with an opportunity to work with two of our largest trading 
partners to shape a new, high-standard trade agreement for the 21st 
century. We are seeking in the TPP to include commitments on new and 
emerging issues, as well as commitments that go beyond the NAFTA in 
such priority areas as labor and environment--which is one of the many 
important benefits of including Mexico and Canada in TPP. The 
relationship between TPP and other agreements, including NAFTA, is a 
subject of discussion among the TPP negotiating partners. Our goal is 
to ensure a trading regime that provides for the most favorable 
treatment of goods, services, and investments.

    Mr. Salmon. What opportunities do you see for greater U.S.-
Mexican energy cooperation, and how might the U.S.-Mexico 
Transboundary Hydrocarbons Agreement on managing resources in 
the Gulf of Mexico advance that cooperation? And does the Obama 
administration plan to seek congressional approval of the 
Agreement this fiscal year?
    And then one other question: I am concerned that the 
administration continues to block the full construction of the 
Keystone XL pipeline when the economic benefits that would 
result from the completion of the pipeline have been very well 
supported and just really make sense intuitively. I really have 
not seen any overwhelming or compelling evidence that we would 
face catastrophic climate change as a result of the pipeline, 
but I have seen evidence that the project will create a lot of 
jobs at a time when we sure could use a lot of jobs.
    The State Department is heading the review of the pipeline, 
so I am wondering if you could tell the subcommittee where you 
are in the review process and whether we can expect approval of 
the project in the very near future.
    Madam Secretary.
    Ms. Jacobson. Thank you very much, Mr. Chairman, and thank 
you for letting me off the hook on that first part of the 
question, enabling me to get back to you in writing, since I 
probably wouldn't have done a terrific job on that one in 
specifics, orally anyway.
    Let me take the second part of your question on U.S.-Mexico 
energy relationship, which I think has enormous potential for 
progress and for exciting cooperation.
    The transboundary hydrocarbons agreement, which I was in 
Cabo San Lucas for the signing of last year, really was a 
breakthrough agreement; not really as much in what it may 
permit us to do, which I think is going to be very positive, 
but in demonstrating to both of our publics that we can work 
together on energy issues, including on oil issues. This is an 
area of the gulf that has long been left unexplored because 
there wasn't legal certainty about such exploration. And what 
we were able to achieve with Mexico, I think to the benefit of 
both countries, is going to be incredibly important.
    So let me assure you that this will be coming in front of 
Congress. I hope that we can count on everyone's support. And 
we hope to do that as expeditiously as possible. Obviously 
Mexico did approve the agreement last year, and so we are 
certainly hoping to do that as quickly as we can. We also think 
it has enormous potential. And I also think the relationship 
shows enormous potential in nontraditional nonfossil fuel 
renewable areas. There is more and more cooperation on wind 
energy, and cross-border wind energy which can supply our grid 
as well.
    So I think there are a lot of exciting projects going on, 
areas like biomass, solar, as well as wind, and the Mexicans 
have great interest in that, and I think there is a lot that we 
can do together on that front.
    Finally, on Keystone you are obviously well versed in the 
process. We are in the middle of this process. The next thing 
that will happen is the environmental impact statement. The 
supplemental environmental impact statement will be produced. I 
am hoping that that will happen very soon, and then we will 
proceed to the next stage of this process, which is the 
determination to be made thereafter.
    So we are hoping that that process will play itself out as 
soon as possible, but as the process is unfolding, I can't tell 
you anything about the particulars of it, largely because I am 
not involved in the day-to-day of the production of the 
individual documents that will be part of the process.
    Mr. Salmon. Thank you, Madam Under Secretary.
    Mr. Feierstein, one quick question regarding Haiti. With 
regards to Haiti specifically, but also in general throughout 
the region, what steps has USAID taken to mitigate the real 
problem of corruption when disbursing funds? Is there an 
effective vetting process, and how do you measure the extent to 
which aid is being siphoned off by corrupt governments, NGOs, 
or contractors?
    Mr. Feierstein. Well, thank you, Mr. Chairman, very much. I 
appreciate that question.
    You know, in Haiti and throughout the hemisphere, we have 
mechanisms in place to assure that all U.S. taxpayer funds are 
managed, are administered appropriately, and we would not give 
a dime to any organization in the United States or any other 
country unless we are assured that they have those mechanisms 
in place.
    What we do is we do a vetting process in which we assess 
organizations, whether it is--or entities, whether it is a 
government, or an NGO, or the private sector. For those 
organizations that may not have the systems in place, we 
provide training. But we do understand that as we move toward 
funding or channeling resources through more organizations 
overseas, again with the goal of strengthening local capacity 
and accelerating the process of which they can take care of 
their own development, that does mean that we need to spend 
time putting in place those mechanisms, ensuring that all of 
these entities have the appropriate systems in place. So we are 
confident that we are doing that.
    Thank you.
    Mr. Salmon. Thank you, Mr. Feierstein.
    My time is expired. I recognize the gentleman from New 
Jersey, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    You know, as we head into a period where we are going to 
have to do more with less in some of these regions, I am 
concerned that we are going to have to rely more on the private 
sector going in and building, and promoting, and doing certain 
things in some of these countries. I am concerned about the 
corruption aspect of it. When we have American companies or 
American investors going into some of these countries and 
working with these governments, they get to a process, and then 
basically some of them are shaked down before they finish the 
process.
    I wonder if you could talk a little bit about the 
corruption in some of these places when you have the private 
sector investing in some of these countries.
    Ms. Jacobson. Thank you. I think you are reflecting, 
obviously, on a problem that we see throughout the hemisphere. 
It is not a problem that is exclusive to this hemisphere. It is 
obviously something that Americans and other companies confront 
in lots of places in the world. But it is an area that, along 
with many of our programs on security, the goal of which is to 
have a level playing field for everybody and access to justice, 
and to have institutions that are clean and not corrupt. And 
while we may focus on the impact of that on street crime, or 
transnational criminal organizations, in fact, that is 
critically important for private investment and for the private 
sector to do business in those countries. So that it is very 
important that we work with countries on improving their 
mechanisms for transparency, for openness, and for 
anticorruption measures. So it is a priority for us as a 
government, both in our assistance programs, as Mark laid out, 
but also in our dealings with governments on private investment 
and private-sector operations.
    We obviously work with American companies very aggressively 
around the hemisphere to make sure that they can have a fair 
shot at whether it is contracts or operating on a level playing 
field, and in many cases we are working with governments in the 
hemisphere to reduce corruption significantly. Countries are 
looking at how well they are doing in that area. As they look 
at a World Bank ranking for doing business or Transparency 
International's ranking, they know that levels of corruption 
impede their own development. And so we are finding more and 
more partners in this fight, but it does not mean, obviously, 
that we have had complete success yet anywhere, even in the 
United States.
    Thank you.
    Mr. Sires. Do you have anything to add?
    Mr. Feierstein. Yes, sir, Congressman.
    I appreciate your reference to our need to do more with 
less, and, as a result, we are doing much more with the private 
sector and establishing alliances not only with the private 
sector in the United States, but also overseas.
    I was in El Salvador 2 weeks ago, had an opportunity to 
announce the largest public-private partnership in the history 
of USAID involving the local private sector. And that was with 
a consortium of foundations funded by the private sector in El 
Salvador, and we will be working in communities to help to 
reduce crime. So I think we are seeing both U.S. companies and 
countries in the region to step up.
    We are also seeing countries themselves recognizing they 
need to put more resources into development. In Honduras, for 
example, a new security tax was approved. Again, you know, 
these are funds that will be devoted to security.
    So I think that we are managing to leverage our funds in a 
considerable way.
    Mr. Sires. And, of course, I could not let you go without 
asking a question about Cuba. Can you tell me where we are with 
Alan Gross? And let me ask the question, where we are with 
Joanne Chesimard? That is a big issue in New Jersey, as you 
know. There is a million-dollar bounty on her head in New 
Jersey.
    Ms. Jacobson. Thank you, Congressman. And I wish I had a 
better story to tell you on the situation with Alan Gross. As 
Assistant Administrator Feierstein said, he remains in prison 
after 3 years. We have pushed very hard for his release. We 
believe his imprisonment is not warranted, and, more 
importantly, he has a situation which warrants a humanitarian 
gesture by the Cuban Government. His mother is 90 years old and 
has cancer. His wife lost her mother recently. He has been in 
prison while his daughter battled breast cancer.
    This is a story where a man should be sent home to be with 
his family, and we continue to push on that with allies and 
partners in the hemisphere on the Cuban Government, directly 
when we interact with the Cuban Government, and with others who 
have come to us and wanted to help. Unfortunately we have not 
seen a response yet from the Cuban Government.
    On Joanne Chesimard, you know that being from New Jersey I 
am very well familiar with the case, and it is an issue that we 
raise regularly with the Cuban Government. I raised it myself 
the last time I was there 2 years ago when we had migration 
talks, the importance we place on the return of U.S. fugitives 
in particular, those like Joanne Chesimard, William Morales, 
and others who have committed terrible crimes and should be 
returned to the United States.
    Mr. Sires. Thank you. I think my time is up.
    Mr. Salmon. Thank you. The gentleman's time is expired.
    The Chair will now recognize the gentleman from Florida Mr. 
Radel.
    Mr. Radel. Thank you, Mr. Chairman.
    A question on Colombia. As I had said earlier in the 
opening statements, it is such a bright, shining example of 
cooperation, culturally, economically, between our countries. 
And the numbers are staggering.
    We have worked closely with Colombia to combat drug 
trafficking, terror activities, poverty. In about the last 
decade, we have seen achievements, such as a reduction of 90 
percent in kidnappings and terror attacks, 45 percent reduction 
in homicides. Again, in about the past 12, 13 years, another 
positive development, the poverty and inequality have 
dramatically decreased. The population living in poverty 
decreased 44 percent in 2002. Again, huge decreases more 
recently as well.
    Are there any kind of lessons that we can learn about our 
relationship with Colombia, and apply them to other countries? 
One in particular, Mexico, we see the struggles and challenges 
that they are dealing with today. Do you see any kind of areas 
where we would be able to apply that?
    I will start with you, Ms. Jacobson.
    Ms. Jacobson. Thank you, Congressman, and it is a great 
question.
    I think we do see many lessons. The issues confronting 
Mexico are in some ways structurally different than they may 
have been in Colombia. Mexico is also a Federal system, which 
Colombia is not. But there are many similarities, and there 
were clearly lots of things learned by Colombia during that 
period of time, things that work, and, frankly, things that 
don't work and that you need to do differently.
    And I am very, very pleased that Mexico and Colombia have 
been cooperating so closely over the last number of years--
frankly, sometimes with our help and encouragement, and lots of 
times without it--including training of police and helicopter 
pilots in terms of sharing information, because these are often 
organizations, as you know, that are transnational, not just 
into Central America, but on into South America. And so there 
is a great deal that can be learned.
    And I would particularly note that the Colombians have been 
doing an enormous job with Central America countries where they 
have been asked for help because of their success. And they can 
often do things better than we can, frankly, in terms of 
training, and the experiences that they have had. They have 
trained over 14,000 police in 25 countries in the hemisphere.
    So we think that the investment that we made in Colombia 
and the cooperation that we develop is paying huge benefits in 
Colombians' understanding how to combat some of these problems 
and continuing to work with us elsewhere in the region and in 
the world.
    Mr. Radel. And you have to forgive me. I did have to leave 
for a second and come back. Could you produce your last name 
for me?
    Mr. Feierstein. Sure, Feierstein.
    Mr. Radel. Feierstein, got it.
    Mr. Feierstein, go ahead.
    Mr. Feierstein. Okay, thank you.
    Well, First, it is an honor to meet a former journalist as 
well, a fellow journalist. And I also learned my Spanish in 
Mexico traveling through there.
    I think there are a number of lessons we can draw from 
Colombia. First is the importance of political will. The 
Colombians were clearly as committed as we were, obviously, to 
initially Plan Colombia and the programs that have succeeded 
since then.
    Another key has been the Colombians have put in resources 
equal to what we put in, really in many ways well beyond. And, 
for example, in the case of USAID, there are programs that we 
were fully funding at the beginning of this process about a 
dozen years ago, and now the Colombians have taken over. And it 
is really a model for us in many ways.
    I mean, also, in the context of the Colombia, you have seen 
very strong interagency cooperation within the U.S. Government. 
And it has been vital, for example, for USAID to work very 
closely with our military as well as the Colombian military to 
ensure coordination and collaboration as we help to extend the 
Colombian civilian presence.
    And specifically with regard to Colombia and Mexico, you 
know, I mentioned in my statement, you know, the example of Los 
Angeles in terms of their success in reducing crimes. But 
Medellin, for example, is an extraordinary success story, which 
not so long ago was, you know, seen as the drug capital of the 
world. A couple of weeks ago it was featured in the New York 
Times travel section as the place to go these days.
    So I think there is a lot to learn from what has been done 
not only at the national level in Colombia, but the local level 
as well.
    Thank you.
    Mr. Radel. Yeah, just for the record, if I can get it in 
writing, maybe we could perhaps later focus on the growing 
influence of Iran in some of the open relationships we have 
seen with Venezuela in particular. We now see this so-called 
truth commission regarding the bombing of the Jewish Community 
Center in Argentina, that President Kirchner is now working 
with them. This is basically, in my opinion, adding insult to 
injury given that in 1999, Argentina had enough compelling 
evidence that INTERPOL issued arrest warrants for five 
officials tied to Tehran, just to get that in the record. We 
will get that in writing later. Thank you both for your time 
today.
    [The information referred to follows:]

  Written Response Received from the Honorable Roberta S. Jacobson to 
     Question Asked During the Hearing by the Honorable Trey Radel

    The Iranian government's interest and engagement in this hemisphere 
has potentially serious implications for our security and that of our 
neighbors. The U.S. government continues to monitor the relationships 
closely, with a view to ensuring that violations of U.S. law or 
international sanctions are quickly detected and appropriate action 
taken. We also have an effective diplomatic strategy that has raised 
awareness and concern about Iranian activities with Western Hemisphere 
countries, and we can see the results. For example, Argentina, Brazil, 
and Chile voted with the November 2011 IAEA Board of Governors' 
resolution calling on Iran to address the international community's 
concerns regarding its nuclear program. Mexico and Brazil voted in 
favor of the creation of a U.N. Human Rights Council Special Rapporteur 
for Iran in March 2011.
    Currently, the focus of the Venezuela/Iran relationship is largely 
diplomatic and commercial. Both governments frequently discuss closer 
cooperation and have signed a number of agreements, but few of the 
joint initiatives and projects have been implemented.
    Where merited, the U.S. government has taken targeted action. In 
October 2008, the Treasury Department designated both the Export 
Development Bank of Iran and its wholly-owned subsidiary the Banco 
Internacional de Desarrollo for providing or attempting to provide 
financial services to Iran's Ministry of Defense and Armed Forces 
Logistics. This designation prohibits all transactions between the 
designees and any U.S. person, and freezes any assets the designees may 
have under U.S. jurisdiction.
    In May 2011, the Department of State announced sanctions pursuant 
to the Iran Sanctions Act as amended by the Comprehensive Iran 
Sanctions, Accountability and Divestment Act (CISADA) against the 
Venezuelan state-owned oil company, Petroleos de Venezuela (PDVSA) for 
its $50 million in sales to Iran of reformate, which is a gasoline 
blending component. The sanctions prohibit PDVSA from competing for 
U.S. government procurement contracts, from securing Export-Import Bank 
financing, and from obtaining U.S. export licenses for controlled 
items.
    Also, in February 2012, the Department of State announced the 
renewal of sanctions against the Venezuela Military Industries Company 
(CAVIM) under the Iran, North Korea, and Syria Nonproliferation Act. 
The sanctions prohibit CAVIM from any U.S. government contract, 
assistance, military sales, or new export licenses.
    Our position on the AMIA bombing is clear and remains unchanged. 
For the last 18 years, we and the international community have joined 
the Argentine government and victims of this horrific attack in seeking 
justice.
    Iran's record of cooperation with international authorities is 
profoundly deficient, which raises doubts that its engagement on the 
AMIA case through the announced Argentina-Iran agreement will prove to 
be a means of achieving justice. Based on developments thus far, we 
remain skeptical that a just solution can be found by this mechanism.
    We understand the commission will comprise five members (two 
appointed by each country, the president via mutual agreement, and none 
allowed to be either Argentine or Iranian nationals) who will 
reportedly travel to Tehran to ``interrogate'' the seven Iranian 
nationals Argentina indicted for their suspected role in the bombing. 
The Iranian foreign ministry spokesperson said Iran had not agreed to 
the questioning of any specific government official.
    His comments directly contradicted the Argentine Foreign Minister's 
repeated statements regarding the specific questioning of Iranian 
Defense Minister Ahmad Vahidi by an Argentine judge in Iran.
    Argentina's Jewish community representatives--in AMIA and DAIA--
stated their unified opposition to the agreement and their lack of 
confidence in Iran as a diplomatic interlocutor. On February 28, 
Argentina's Congress approved the memorandum.
    A legal advisor at the Iranian foreign ministry told a major 
Argentine radio station that Iran's parliament could yet reject the new 
Argentina-Iran memorandum, and appeared to indicate that the issue was 
not considered pressing and thus could well be put at the bottom of the 
Iranian legislature's agenda.

    Mr. Salmon. Thank you. The gentleman's time is expired.
    I recognize the gentleman from New York Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me join the gentleman in saying that I, too, look at 
the remarkable work that has been taking place in Colombia from 
when I first got elected to Congress, when you dared not travel 
to Colombia, to where people are traveling to Colombia from all 
over the world. It is now you go to--Cartagena is one of the 
major destination vacation cities in the world. So you have to 
take your hat off to the people of Colombia when you look at 
their elections and where they are moving forward. It is just 
absolutely fantastic.
    The issue, though, that I do want to bring up because it 
was so successful when you look at what Medellin now is just 
unbelievable and how we have focused there, but we have changed 
the plan or Plan Colombia, agreed now to also help with making 
social change. And I am wondering can you tell us where we are 
with that?
    For example, you know, when I visit Colombia, not only do I 
visit Medellin, or Bogota, or Cartagena, I go to Tumaco; I go 
to Buenaventura; I go to Choco; I go to Cali, and some of 
these--the drug cartels have pushed out into some of these 
areas. There is--clearly when I go, sometimes I have to take a 
brigade of police with me because for security reasons, and 
these people tell me that this is what they live with. So can 
you tell us where we are and how we are moving forward with the 
moneys that are now going socially so that we can make a 
difference in those areas?
    Ms. Jacobson. Thank you, Congressman, and thank you for 
your continued commitment to Colombia. And I am going to let 
Assistant Administrator Feierstein answer much of this.
    But you are absolutely right. The Colombia program has to 
adapt to the reality and, indeed, much of its success, and now 
there are challenges that are different that we need to be 
addressing with the Colombian Government, which I believe 
President Santos has begun to address.
    But there is no doubt that Afro Colombian communities in 
the areas that you have mentioned still have a long way to go 
before they feel safe and before they have economic development 
that really brings them the benefits that we have seen in those 
macroeconomic statistics that are so positive. It is one of the 
reasons why we have a joint action plan on elimination of 
racism and working on Afro-descending communities with 
Colombia, trying to focus on small communities, how we can help 
with business, how we can help women entrepreneurs, and how we 
can help with protection issues.
    This is very much an issue that we work on with Colombia 
now, and one that I think we have to continue to commit to, as 
well as ensuring that we focus on in all of our programs--not 
just ones under the joint action plan, but in all of our 
programs--that we focus on these vulnerable communities as part 
of those recipients.
    Mr. Feierstein. Thank you, Congressman. You raise some 
vital issues. In fact, our support in Colombia has evolved as 
the challenges there have evolved. The Santos administration is 
currently implementing some historic reforms, first in terms of 
land, to restitute land to those people who lost their land as 
a result of the conflict and have been displaced. And USAID 
helped to draft that legislation, is now helping implement that 
law.
    Second, with regard to victims, there is an effort to 
compensate the millions of victims in that conflict. And again, 
we helped to draft that legislation and are now helping to set 
up the entities that will carry that out.
    Specifically with regard to the challenge of Afro 
Colombians, we have a large program in Colombia. It has been 
ongoing for a number of years. We have just initiated a new 
part of that. But we recognize the special challenge that Afro 
Colombians face.
    You mentioned some of the places you have traveled to, 
Tumaco, Choco. I have also been to those. We would be delighted 
to show you some of our programs in those areas.
    We have very much focused on helping Afro Colombian 
communities to improve their governance. We provided some 
economic assistance to help them with their livelihood, and we 
have a strong human rights component in that program as well, 
because we recognize the special challenges that both Afro 
Colombians and indigenous people in Colombia face.
    And we are working, with regard to human rights, both with 
government institutions to help them to better protect Afro 
Colombians and others, but also with----
    Mr. Meeks. I don't want to interrupt you, but I am running 
out of time, and I am really going to want to talk to you so we 
could follow up on that. You know, send me some of what we are 
doing in writing, but we have been working--and I know Ms. 
Jacobson, we have been working very closely, and so we look 
forward to doing that.
    But I just wanted to quickly raise, because I was just 
reading yesterday, a comment by--going to Haiti quickly--
President Martelly, where he is talking about roughly 350,000 
people still live in camps, and many others simply have moved 
back to the same shoddy-built structures that proved so deadly 
during the disaster; and that Martelly has said that the relief 
effort is uncoordinated, and projects hatched from good 
intentions have undermined his government. He said, we just 
don't want the money to come to Haiti anymore. Stop sending 
money, he says. He said, let's fix it. He says, referring to 
the international, let's fix it. What would your comments be 
about that?
    Mr. Feierstein. You know, thank you, Congressman.
    One of the biggest challenges that we face in Haiti in the 
reconstruction effort is to find housing for the people who are 
living in tent camps, and there is some good news to report. 
You know, at the height of this, there were 1.5 million 
Haitians living in tent camps. There are now about 300,000. So 
there is still a ways to go. And USAID has done a lot in the 
area of housing. We are building some new housing. We provided 
some transitional shelter in the immediate aftermath of the 
quake. We have been supporting the government with some new 
mortgage-finance programs. We have had some housing-subsidy 
programs in place.
    But ultimately the real key is going to be to create jobs. 
And when we have done surveys in Haiti among those living in 
tent camps, those outside, everyone, including people living in 
tent camps, say their number one priority is jobs, not housing. 
And we can construct housing anywhere, but people won't move to 
those places unless there are jobs, unless there are community 
services like health care and education.
    So we are putting a great effort now in trying to 
strengthen the Haitian economy. We have just helped to open a 
new industrial park in the north, which we anticipate will 
employ up to 65,000 people once all the tenants are there.
    We have a very strong agricultural production program in 
place. We are reaching nearly 100,000 farmers, helping them to 
increase production, access markets both domestic and 
international.
    You know, certainly Haiti is challenging, but, you know, it 
has been 3 years since the earthquake, but this is a long-term 
challenge, and we have a long-term plan in place. And if we 
consider, you know, where Haiti was even before the earthquake 
and the extraordinary damage that was done, I think that the 
progress we have seen in the last 3 years has actually been 
quite considerable.
    Thank you.
    Mr. Salmon. Thank you. The gentleman's time is expired.
    I recognize the gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. I have got an opening 
statement I would like unanimous consent to submit for the 
record.
    Mr. Salmon. Without objection.
    Mr. Duncan. Thank you.
    I am glad Colombia was sort of the center of the focus 
today. I was down there last year to the Summit of the Americas 
in Cartagena, where I met the Secretary, I think, for the first 
time. And it was interesting to hear the conversation about the 
security, and FARC, and narcoterrorism. We were down there in 
August of last year as well looking at what the Air Assault 
Division and the money we talked about earlier the U.S. has 
helped Colombia with, the helos, and the helicopter training. 
And so I see some successes down there.
    But when the ranking member and I were in Cartagena, we met 
with the members of the Colombian Congress, and we asked them 
the secret of their success, because we saw prosperity, and 
this is what they said, I thought it was very interesting: Low 
taxes, government spending to--limiting government spending to 
4 percent of GDP or less. Now, they have got some room for 
improvement there. I believe they could spend more on GDP. But 
4 percent of GDP or less, and just enough government to support 
the free markets. That was what the Congressmen said in there. 
And I wrote it down. I tweeted it out that day, put it on 
Facebook, because that is what made this country great. So 
maybe we need to go back and take a lesson from Colombia.
    The area I would like to focus on is an area that was 
conspicuously absent in the written testimonies of Secretary 
Jacobson and Administrator Feierstein, and that is the issue of 
Iran's growing influence and activity in the Western 
Hemisphere.
    The gentleman from Florida mentioned Argentina and the 
Reuters article today about Argentina's Congress approved early 
on Thursday an agreement with Iran to investigate the 1994 
bombing, and that is concerning me. I believe Iran is a growing 
threat in the Western Hemisphere. We have got the bill passed 
last year, Countering the Iran in the Western Hemisphere Act, 
signed by the President.
    So the question I have for Secretary Jacobson, have you 
personally been overseeing the Bureau of Western Hemisphere 
Affairs' implementation of the Iran strategy, and if not, who 
has?
    Ms. Jacobson. Thank you, Congressman. It is nice to see you 
again.
    Let me assure you that I am overseeing that process, I 
think it is a very important process, but that our writing of 
the report and the strategy in response to that request really 
for me is part of an ongoing effort that I and the entire 
Bureau are making to make sure that we know as much as possible 
working with the Intelligence Community, and that we are 
constantly monitoring, being vigilant and responding to on 
occasion when sanctions are breached the Iranian activities in 
the hemisphere.
    Mr. Duncan. Okay, let me ask this: Has the State Department 
consulted with our allies in the region and other countries, 
and the partners, which I believe this is a partnership of our 
neighbors here in this hemisphere to assess this threat and 
counter that. So what are we doing with Nicaragua, and 
Honduras, and Argentina, and Paraguay, and Uruguay on this 
issue?
    Ms. Jacobson. Thank you.
    In fact, a big part of what we think is critical in 
responding to Iranian activities is working with the other 
countries in the hemisphere both to ensure that we can both 
evaluate the threats, see how we see it. If there are 
differences in how we evaluate it, if there is information that 
we can share, we can do that. That is not always possible. But 
also that we make sure that they understand our view on this, 
and that they understand, you know, how they, too, can detect 
and monitor, if you will, themselves, because some countries 
are concerned that they may not have the same information that 
we do.
    So we do have conversations with all of our partners in the 
hemisphere and, frankly, anyone who wishes to talk about that 
subject with us to monitor actively the Iranians' activities. 
There obviously are also a lot of diplomatic agreements and 
activities that Iran signs in the hemisphere, most of which, I 
have to say, seem not to be coming to fruition, seem not to be 
delivered on.
    So we have active conversations with leaders in the 
hemisphere about this issue.
    Mr. Duncan. Well, I appreciate that. I look forward to the 
report, and I look forward to this committee having a hearing 
based on that report and possibly traveling down to see the 
implementation in the Western Hemisphere.
    Just one final thing, and this is for Administrator 
Feierstein. With ICE's recent release of the detainees, how do 
you expect this action to be viewed by the South and Central 
American countries?
    Mr. Feierstein. I am sorry, can you please repeat the 
question?
    Mr. Duncan. ICE released a bunch of illegal aliens this 
week due to sequestration. So how do you think that is going to 
be viewed by our neighbors?
    Mr. Feierstein. I think that issue might fall beyond the 
purview of USAID. You know, we do have a program in place in 
Haiti, for example.
    Mr. Duncan. Well, let me redirect, then, my time to the 
Secretary.
    Ms. Jacobson. To the best of my knowledge, these were not 
criminal detainees. I don't know how countries--I don't think 
they have responded to that release. Obviously I think ICE as 
well as other agencies in the U.S. Government are doing 
everything they can under tough budget circumstances to ensure 
national security is maintained. But I don't know that we have 
seen a formal response from countries or that they will have a 
strong reaction to it.
    Mr. Duncan. Thank you. I yield back.
    Mr. Salmon. Thank you. The gentleman's time is expired.
    The Chair will now recognizes the gentleman from American 
Samoa Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I am impressed by the fact that 40 percent of U.S. exports 
to the world goes to the Western Hemisphere. And I also want to 
say that I am impressed with all of the accomplishments, the 
high technology, and everything there is that is making our 
relationship with the Western Hemisphere a dynamic one. But 
correct me if I am wrong, are there about 500 million people 
that live in the Western Hemisphere?
    Ms. Jacobson. I think we are nearing 1 billion, including 
the United States and Canada.
    Mr. Faleomavaega. A billion. No, no, no, don't include the 
U.S., because the U.S. alone is 320 million, so----
    Ms. Jacobson. Right. In Latin America it is over 600 
million.
    Mr. Faleomavaega. Alone.
    Ms. Jacobson. Yes.
    Mr. Faleomavaega. I sound somewhat simplistic in talking 
about populations. But you are suggesting the whole Western 
Hemisphere is about a billion people. And out of that number 
would it be safe for me to say that maybe perhaps 200 million 
are indigenous Indians?
    Ms. Jacobson. I am not sure I know that.
    Mr. Faleomavaega. Can you provide that for the record? I 
would deeply appreciate that.
    Ms. Jacobson. Certainly, sir.
    [The information referred to follows:]

  Written Response Received from the Honorable Roberta S. Jacobson to 
      Question Asked During the Hearing by the Honorable Eni F.H. 
                              Faleomavaega

    Based on estimates published by international and non-governmental 
organizations that focus on the region, the indigenous population in 
Latin America and the Caribbean numbers around 40 or 50 million and 
makes up between 8 and 11 percent of the population. Bolivia, Peru, 
Mexico, Guatemala, Colombia, and Ecuador have the largest indigenous 
populations in Latin America. In addition, Canada's indigenous 
population numbers approximately 1.2 million.
    Census information related to indigenous populations in Latin 
America is often difficult to verify due to: the lack of census 
surveying in areas affected by conflict where large proportions of 
Latin American indigenous people reside; varying ethnic or race 
classifications for indigenous populations; and migration into cities 
or through porous borders.

    Mr. Faleomavaega. As I said in my statement earlier in our 
hearing, all the dynamics of the success in our trade, 
economics, political, and all of this, but somehow hardly 
anything seems to be coming through and to say, ``What are we 
doing in dealing with the indigenous inhabitants of this 
region?''
    I say this because we have a similar situation. We have 565 
Indian tribes in this country that we have to deal with, 5-
point-some million people, and of all of the different groups 
living in our own country, the worst off in education, the 
worst off in poverty and everything else are Native American 
Indians.
    And I would like to ask both of you, do we have any kind of 
data or information as it relates to how these countries in the 
Western Hemisphere treat indigenous Indians, just like my 
friend here who is looking very concerned about the treatment 
of Afro descendants?
    Ms. Jacobson. Thank you, Congressman.
    I think--I am not sure that we have a report or data 
ourselves that would reflect exactly the situation of 
indigenous populations in the hemisphere. I know that other 
international organizations and development organizations do 
work on that and probably do have data. I will leave that to my 
colleague.
    But let me just say that I think part of what you saw at 
the end of the first term, and certainly Secretary Clinton and 
now Secretary Kerry are committed to this--and maybe our 
shorthand is not appropriate, maybe it is not as understandable 
as it should be--is we talk a great deal and have moved on 
programs for social inclusion, and we talk about expanding 
economic opportunity. Let me be clear that what we mean by that 
is to populations who have not had access to that prosperity 
before. A big part of that are indigenous communities.
    Mr. Faleomavaega. All right. I realize there may be 
instances, too, when I raised the issue, and it has always been 
referred to as a domestic, internal problem that we really 
don't have much a say on.
    Ms. Jacobson. Well, I don't think we feel that way. I think 
we feel this is very much an issue of our foreign policy and 
the relationship we have with these countries. When we talk 
about the ability to start a small business, or working with 
women's organizations, or working with groups that have been 
disadvantaged, we mean working directly with indigenous groups.
    Mr. Faleomavaega. Madam Secretary, we may be doing this, 
but I am not getting a sense, based on your statements, in 
really addressing this very thing that I am saying. If you are 
talking about 200 million indigenous people, and the worst 
situation, in my opinion, the treatment of these people among 
all of the countries, I would say basically most of the 
countries in Latin America has been poor and shameful.
    Now, you can tell me if I am wrong on this, but, please, I 
would really would like to ask if you could provide for the 
record exactly what data, what information the State Department 
has on how indigenous populations throughout this hemisphere 
have been treated.
    Ms. Jacobson. Certainly, I would be happy to.
    [The information referred to follows:]

  Written Response Received from the Honorable Roberta S. Jacobson to 
      Question Asked During the Hearing by the Honorable Eni F.H. 
                              Faleomavaega

    Despite laws and policies that prohibit discrimination based on 
ethnic origin in a number of Latin American and Caribbean countries, 
indigenous people are among the most marginalized groups in the Western 
Hemisphere. They face challenges to full political and economic 
participation and access to education. These challenges affect poverty 
rates and educational attainment. According to the UN Department of 
Economic and Social Affairs, indigenous people are two to seven times 
more likely to make up the poor or extremely poor in countries such as 
Paraguay, Guatemala, and Mexico. The Economic Commission on Latin 
America and the Caribbean reported that primary school attendance rates 
for indigenous peoples is lower than non-indigenous people in both 
urban and rural areas. According to reports by the Inter-American 
Commission on Human Rights (IACHR), indigenous people and African 
descendants in Colombia have been more vulnerable to attacks by illegal 
armed groups and more often targeted in extrajudicial killings than 
other populations. In a separate IACHR report on Honduras, members of 
the indigenous community have been subject to threats and intimidation, 
and, along with African descendants, experience higher rates of poverty 
than the rest of the population. The Pan-American Health Organization 
noted that indigenous Peruvian women experience a maternal mortality 
rate of 489 out of 100,000 live births, more than four times the rate 
in the population as a whole.
    In the Bureau of Western Hemisphere Affairs, the Race, Ethnicity, 
and Social Inclusion Unit coordinates bilateral action plans to promote 
racial and ethnic equality with Brazil and Colombia, and promotes 
similar initiatives in the region. We engage indigenous communities in 
Bolivia as they seek greater social inclusion and integration into 
political processes. Programs promote interaction between U.S. Native 
Americans and indigenous peoples, as well as counter negative 
stereotypes of Americans and build greater support for U.S. policies 
among the Bolivian public. The Department sponsored exchange programs 
between the Choctaw, Cherokee, and Chickasaw nations and Bolivian 
indigenous university students, educators, and entrepreneurs. In 
addition, through the College Horizons Outreach Program, we offer 
English language training, academic advising, and mentoring to increase 
opportunities for indigenous and African descendant high school 
students to pursue higher education.
    We have facilitated partnerships with U.S. Historically Black 
Colleges and Universities that benefit indigenous people, African 
descendants, and women, especially with academic opportunities in 
science, technology, engineering, and math fields. We facilitated 
technical exchanges with the Minority Business Development Agency and 
seminars aimed at helping indigenous- and Afro-Brazilian-owned business 
to take advantage of economic opportunity in the upcoming World Cup and 
Olympic Games.
    Our Pathways to Prosperity initiative promotes inclusive economic 
growth and shared prosperity by ensuring the benefits of free trade are 
equitably shared among all peoples. Through this initiative, the 
Department of State has supported entrepreneurship programs in Colombia 
with indigenous and Afro-Colombian women business-owners in 
Buenaventura and Bucaramanga, to expand their access to regional 
cooperation on economic development and competitiveness, exchange best 
practices on labor standards, and implement measures to ensure the 
sustainability of their businesses.

    Mr. Faleomavaega. Especially on the areas of education, 
areas of poverty, economics, whatever it is that they have on 
this, because I seem to see a similar pattern in terms of how 
we are having problems in our treatment of Native American 
Indians as well. And maybe Mr. Feierstein can--oh, I am sorry, 
Mr. Chairman, I think I am going over my time. But maybe Mr. 
Feierstein can help me on this; 30 seconds, 20 seconds.
    Mr. Salmon. Okay.
    Mr. Feierstein. Well, first, Congressman, thank you very 
much for raising the issue because it is absolutely vital. And 
you are referring to the numbers, and the numbers overall are 
impressive. And certainly if we focus on particular countries, 
you know, Guatemala, for example, Peru, Bolivia, and others, 
the numbers are overwhelming.
    We do have a number of programs in place that are, in fact, 
focused on indigenous populations, they may not be advertised 
as such, but, for example, our program in Guatemala working the 
western highlands, where we are focusing on poor farmers and 
helping them to produce, to help them increase production.
    Mr. Faleomavaega. My time is up. I hate to say this, but of 
the 100,000 that want to do this educational exchange or 
whatever it is, I hope you include the indigenous Indians, who 
have the same----
    Mr. Feierstein. Absolutely.
    Mr. Faleomavaega [continuing]. Because I am not hearing it.
    Thank you, Mr. Chairman, I am sorry. I didn't mean to go 
over the time.
    Mr. Salmon. Thank you. I thank the gentleman.
    I recognize the gentleman from Florida Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Thank you all for testifying. I am going to ask about Cuba. 
I don't know if you have covered that. I have been going back 
and forth with meetings, so please indulge me.
    You know, this has obviously been a major concern for folks 
in my State for a long time. The extent to which the Castro 
regime has upset the livelihoods of people, taken their 
property, infringed their freedoms is something that is very 
real to a lot of people in my State. It is something that I 
care about a lot.
    Obviously we have seen transition to the brother, and then 
now with this recent announcement that the brother was going to 
set a date when he would step down, and I am very concerned. I 
mean, I think Cuba has a chance to really do well if it 
embraced democracy, if it embraced human rights, if it embraced 
free-market economics and turned its page on, you know, this 50 
years of repressive rule. But I don't know how the dynamics are 
shaping up and whether we are going to have an opportunity to 
shape that in a positive direction.
    So, Ms. Jacobson, can you give me your thoughts on how you 
see Cuba in our policy? Well, not necessarily our policy, but 
what is going to happen in Cuba over the next 5 years?
    Ms. Jacobson. Congressman, I wish I had that crystal ball. 
I really do. It would be useful. But I do think that when you 
look around the world, you see countries that were closed for a 
very long time, which, frankly, have succumbed, have eventually 
opened up to the global marketplace and the global pressure for 
democracy, human rights, political rights.
    We don't yet see that in Cuba. My hope is that the time is 
coming that within that 5-year period, there will be changes on 
the political side, because the changes that are being made now 
are not affecting political rights. They are on the economic 
side. And so my hope is that we will see some of that change in 
the next 5 years certainly. Our goal is to do everything that 
we can to ensure that Cubans have the right to determine their 
own future, to make their own decisions.
    Mr. DeSantis. What is your sense of--I know that our 
Government has been involved in promoting democratic ideals 
amongst the population. You know, how widespread? Are those 
ideals something that the Cuban people embrace? I would imaging 
that many of them would like a change, but do we have any sense 
on, if there was an opportunity for new leadership, whether the 
majority of Cubans would be supportive of a freer government?
    Ms. Jacobson. Well, I think, as you can understand, the 
first thing I would say--and my colleague is actually a better 
expert on polling issues than I am--but I would guess that, you 
know, the data that exists or that we have is not very 
revealing in terms of what Cubans may think privately and what 
they may wish and hope for.
    But I think all citizens, you know, globally want that 
right to determine their own future, want that right to be able 
to vote freely for their leadership. And certainly, that is our 
hope for Cubans. But I also think that increased contact with 
Americans, American church groups, American cultural 
organizations, Americans there in educational exchanges--and I 
would certainly hope that Cubans would be allowed to come and 
study here, which has not always been the case--I would hope 
that that would be helpful as well in promoting some of the 
ideas that have been universally accepted for democracy and for 
human rights.
    Mr. DeSantis. Well, thank you. And I would just say, you 
know, and I will yield back the balance of my time, I think, 
you know, to have a dictatorship like that so close to our 
country, it is just a very sad thing that it has happened after 
all of these years. And we haven't seen positive changes from 
that regime. They are politically repressive. They don't honor 
any type of individual freedom. And, you know, I yearn for the 
day when we get a--where we get a better outcome there.
    Thank you, Mr. Chairman.
    Mr. Salmon. I thank the gentleman.
    I recognize the gentleman from Florida Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Chairman, I ask 
unanimous consent that my opening statement be inserted into 
the record.
    Mr. Salmon. Without objection.
    Mr. Deutch. Secretary Jacobson, I wanted to follow up on 
this discussion of Cuba and get back to the exchange earlier 
about Alan Gross, the exchange that you had with Mr. Sires. You 
said that at this point, despite all of our efforts, we haven't 
seen a response from the Cuban Government.
    What is it that we are doing? What is it specifically that 
we are asking our allies to do, those who have closer 
relationships with the Cuban Government? What is it that we are 
doing, and are we doing as much as we can to ensure that Alan 
Gross can become a free man?
    Ms. Jacobson. Thank you, Congressman.
    I should, I guess, be clear about the response that we seek 
from the Cuban Government, which is the release of Alan Gross. 
That is the appropriate response. We have--when we talked with 
our allies and partners, including with the Vatican before the 
Pope went and others outside the governmental sphere, our goal 
and our request is the same: Please ask the Cubans to take the 
humanitarian gesture to release Alan Gross. That really is what 
we are asking. Can you help make that a reality?
    But in addition, frankly, we are concerned about Mr. Gross' 
health, and we have repeatedly asked for the Cuban Government 
to permit a doctor of the Gross family's choosing to examine 
him. So we have also asked others to help us achieve that.
    Mr. Deutch. I am sorry, what was the response to that 
request?
    Ms. Jacobson. That has not been approved.
    Mr. Deutch. What kind of care is he receiving? Who has been 
permitted to see him?
    Ms. Jacobson. He has obviously been seen by Cuban doctors, 
and he has been treated or advised in Cuba. There was an 
American who visited him not long ago who was a medical doctor 
and also a rabbi, but he was not a doctor of the Grosses' 
choosing and really wasn't able to do a physical examination of 
the sort that the Gross family would like and would reassure 
them that he was getting adequate medical treatment.
    Mr. Deutch. And of all of the requests that we make--and 
certainly, certainly, we believe he should be released. We 
can't--there must be some way that, working with our allies, 
our partners, the Vatican, that at least on a humanitarian 
basis together they can convince the Cuban Government to allow 
a physician of the family's choosing to come in to see him, to 
support what they claim is the case that he is receiving the 
care that he needs. I mean, on a humanitarian level that is not 
possible?
    There are all sorts of issues around this case that are 
frustrating and that are outrageous. But how it is that we 
can't--that the world can't compel the Cuban Government to at 
least allow a doctor in to see him? I don't understand that.
    Ms. Jacobson. Congressman, all I can tell you is that I 
share your frustration and your outrage, and it has not been 
possible up to date, but it has not been for lack of trying 
with some very helpful and, I think, quite powerful partners.
    Mr. Deutch. I appreciate that.
    Just to shift gears for a second, I want to--rather 
dramatic--I want to thank the administration for making the 
promotion--and you spoke about this earlier, Madam Secretary--
the promotion of clean energy and environmental sustainability 
a priority for the U.S. and Latin America.
    One of the region's most overlooked challenges, though, is 
deforestation, particularly in the Amazon rainforest. As 50 
percent of the world's plants and animals can be found in the 
rainforest, it is vital that the United States be a leader in 
helping to protect these valuable resources.
    So can you tell us more about the administration's efforts 
to promote environmental sustainability and to protect the 
rainforest in Latin America?
    Ms. Jacobson. I am going to speak in sort of more general 
policy terms real quickly, and then I would like to turn to my 
colleague, if that is okay.
    Obviously the environment--the Energy and Climate 
Partnership of the Americas, or ECPA, it now has about 40 or 45 
projects. They are relatively small-scale. All of them are 
designed to move us to both clean energy, or to look at 
adaptation and mitigation for climate change. But among those 
are work with countries on promoting the reduction of 
deforestation and maintain habitat for biodiversity.
    We have also, obviously, opened conversations with our 
Brazilian partners, with other Amazon countries, Colombia, 
Ecuador, Peru, as well as others around the hemisphere, on how 
we can do more cooperatively in global fora as well as regional 
fora on reducing deforestation.
    Mr. Deutch. Mr. Chairman, if Mr. Feierstein could have just 
30 seconds to respond?
    Mr. Salmon. Sure.
    Mr. Feierstein. Thank you, sir.
    In the area of global climate change, we work both with 
countries to help mitigate the impact to reduce their carbon 
emissions. We also work with countries to adapt to the effects.
    Particularly with regard to deforestation, we do have 
programs in place, for example, in Peru, also in Brazil. 
Working with indigenous people. We have carbon credit programs 
in place, but also helping to train in terms of forest 
management to manage this challenge. But I would be happy to 
discuss these at length with you at some time.
    Mr. Deutch. I hope you will. Thank you.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    We have a little bit more time, and we will try to get 
through a second round of questions for each of the members. We 
will probably be called to vote around 11:15. I would like to 
just ask two quick questions.
    One, may I ask each of you to provide the subcommittee with 
a preview of each of your Fiscal Year 2014 budgets? We haven't 
seen the President's budget yet, and we would like to get an 
idea of what your budget priorities are. And that can be 
submitted later, obviously.
    [The information referred to follows:]

  Written Response Received from the Honorable Roberta S. Jacobson to 
     Question Asked During the Hearing by the Honorable Matt Salmon

    I cannot speak to the FY14 Budget numbers at this time, as they 
have not been released, but we are happy to brief the committee on this 
topic at a future date.

    Mr. Salmon. But also, with some of the things that have 
happened in the last year, especially in other parts of the 
globe regarding Embassy security, I would like to ask a 
question. How do you feel about the security of our Embassies 
in the Western Hemisphere, and what potential needs do you have 
that we should address ahead of the curve? Thank you.
    Ms. Jacobson. Mr. Chairman, thank you so much for that 
question. And I want to say that I think all of us post-
Benghazi, if we weren't paying enough attention before, we 
certainly are now. Whether it is focus on the ARB's 
recommendations and ensuring that those are implemented not 
just in the Middle East, but globally, or a review of our own 
situation in every country in the world, we take this extremely 
seriously.
    I think we have legitimately recognized that the Western 
Hemisphere happily does not face the same level or the same 
kind of threat that we do in the Middle East, but we are never 
complacent about that, and we don't mean that there are no 
threats.
    So we have reviewed all of our posts, we have talked with 
all of our Ambassadors, we have ensured that they have reviewed 
all of their emergency action planning to be sure that we are 
on top of these issues, and that when threats arise, that we 
take none of them lightly.
    We are lucky enough to have in many parts of the hemisphere 
buildings that were built either to Inman standards or are even 
newer. I am going to see our new consulate in Tijuana in the 
next couple of weeks, something that was long overdue because 
our Mexican border posts did concern us at one time, but there 
have been either new buildings built or plans put in place to 
rectify that.
    The other thing I want to say is I am very confident that 
in countries of this hemisphere, we have the cooperation of the 
governments, the host governments. Even in places where our 
political relationship may not be terrific, we have found 
extremely good cooperation with security services in order to 
protect our people. So we have been very confident that we can 
work together to make sure that our people are always safe, 
because that is our number one priority.
    Mr. Salmon. That is great to know that we are getting very, 
very good cooperation from the member countries. Obviously, 
that is paramount. So even with some of the countries where we 
have somewhat strained relations, such as Venezuela and 
Nicaragua, we have good relations with member countries on 
security.
    Ms. Jacobson. Yes, sir. I think we have been very pleased 
with the response of those countries.
    Mr. Salmon. Thank you.
    I am going to yield back the balance of my time. The Chair 
recognizes Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    I read a curious article yesterday, I think it was in The 
Washington Post, where the Hezbollah was following the Israeli 
vacationers in Cyprus. I will get to how this leads into South 
America, and Central America and the Western Hemisphere in a 
second. But they were tracing these tourists in Cyprus. And 
there is a concern that Hezbollah--obviously Iran is training 
these spies to follow the Israelis as they go in different 
places, eventually, obviously, to do a terrorist act.
    I know that at the end of last year, we had the Western 
Hemisphere Act of 2012, which basically you are supposed to 
give us a report. Iran, had to combat Iran's influence in the 
Western Hemisphere, and they are a growing influence in the 
Western Hemisphere. Can you talk a little bit about that 
report? Where are you, and when are we going to get this report 
in 2013? You know, I haven't seen it, so I don't know if you 
gave it, or maybe I just missed it. But I just thought it was 
curious that Iran is training this terrorist organization, 
Hezbollah, to follow Israelis into Cyprus, and I am just 
wondering if maybe they are setting the same thing up in the 
Western Hemisphere?
    Ms. Jacobson. Congressman, you haven't missed anything. We 
have not submitted that report. We will do so by June. I think 
it is in June when the deadline is for submitting it, and we 
are working on it now. I think that it is--you know, the most 
important thing for us is to make sure that we have looked at 
all of the information that we possibly can, and then that we 
react to that information in a way that is well founded, not 
downplaying any threat, but also making sure that we have 
consulted with our experts in both the security and the 
Intelligence Community to be sure we have, frankly, looked at 
the most credible information we can.
    I think that in the end what we are going to hopefully 
provide you will help you know what we are doing to respond to 
concerns that we may have, and where we believe there is no 
evidence to support some of the concerns that have been 
mentioned publicly. I do believe that a good percentage of the 
report will be classified, but I know there is an unclassified 
part required, and we will do our best to convey our actions in 
that, because, as I say, we are not complacent. We saw, you 
know, a bus bombing in Bulgaria. And so these things do have to 
be looked at, obviously, after the AMIA and the Israeli Embassy 
bombing in Argentina. We don't consider anything impossible, 
and the Arbabsiar case of the Saudi Ambassador with the person 
from Mexico. So we will be getting back to you soon.
    Mr. Sires. All right. Thank you.
    Mr. Salmon. Thank you.
    The Chair recognizes Mr. Radel.
    Mr. Radel. Thank you, Mr. Chair.
    We have been kind of openly discussing the challenges that 
we have with Venezuela and sometimes the rhetoric coming out of 
President Chavez there, whose health right now is in question.
    When we look at the possibility of a post-Chavez Venezuela, 
is there a role--this is directed, by the way, to Assistant 
Secretary Jacobson--is there a role that the United States can 
play, that we should play, possibly can play, in terms of 
ensuring free, fair, and transparent elections in the country 
of Venezuela?
    Ms. Jacobson. Thank you, Congressman. And actually, if I 
could, I think it is a question for both of us.
    Mr. Radel. Great.
    Ms. Jacobson. USAID has terrific election programs.
    I do think there is a role for the United States. In some 
ways there has always been a role with the Venezuelan people, 
and there will continue to be. We engage actively with 
Venezuelans of all stripes and will hope to continue to do so. 
We will talk about the importance of an even playing field, 
commitments that all of us have made in the inter-American 
system to open, free and fair elections. And I am hopeful that 
with a small amount of foreign assistance that we have had on 
the books for a number of years, we will be able to help in 
more concrete ways.
    Mr. Feierstein. Thank you, Congressman, for the question.
    In Venezuela, we do have a long-standing program in place 
to support those who are advocating and fighting on behalf of 
democracy and human rights in Venezuela. We support civil 
society. These are nonpartisan programs. As Roberta noted, we 
have had electoral programs in place in the past and are 
prepared to do so in the future as well; helped Venezuelan 
groups to monitor the process to encourage people to vote; and 
we have also been supportive of human rights groups that have 
documented the human rights situation there, and we are 
prepared to continue those under any scenario.
    Thank you.
    Mr. Radel. Thank you.
    I yield the remainder of my time. Thank you, Mr. Chair.
    Mr. Salmon. Thank you.
    The Chair recognizes Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    I have two questions. Number one, could you give me, tell 
me what the success is or the failures or the weaknesses of 
CBSI; whether or not, you know, they are having the social 
impact that we thought that they would have; whether it is 
helping, you know, combat drugs, et cetera? So if you could 
give me your opinion on CBSI.
    And secondly, give me your thoughts and your opinion on the 
progress of the negotiations between the Colombian Government 
and the FARC that is currently taking place.
    So those two.
    Ms. Jacobson. Thank you very much, Congressman.
    On CBSI, I think I would say to you that the jury is still 
out. There is a lot of work still to be done. I think we are 
making progress.
    One of the things I am most pleased about is the process 
that we have undertaken to implement programs through CBSI. It 
was slow in some ways, but that was because it was incredibly 
collaborative, coming together with that many separate 
Caribbean countries to decide what the priorities were and 
where the programs were going to be carried out, which also, I 
think, was important for sustainability, for governments to be 
doing what they thought was important as well as we thought.
    I do think that in some places we have seen increased 
information sharing; increased cooperation on operations, 
especially maritime; and some inroads that we have begun to 
make in whether it be reduction of caseload in the judicial 
area, or working with prosecutors and others in areas to 
improve judicial responsiveness.
    We have also seen a lot of effectiveness here of the donor 
coordination. Our own funds are not as large as we might like, 
but we have been able to partner with both the U.K. and with 
Canada to get extra prosecutors in, and to work with them to 
kind of leverage increased cooperation and make sure we are all 
working on the same areas.
    Mark, you probably have more specifics.
    Mr. Feierstein. Sure. In the case of CBSI, USAID is, of 
course, one of the many agencies responsible for implementing 
our programs. We operate in three areas in particular: First, 
supporting efforts with at-risk youth; providing education, 
workforce development to provide alternative and positive 
lifestyles for youth who might otherwise be lured into a life 
of crime.
    Secondly, we are very much involved in the area of juvenile 
justice reform.
    And then finally, also with regard to community policing, 
we are supporting a number of countries in that area. That is 
probably the area that we have seen the most success. For 
example, in Jamaica, we have had a long-standing community-
based police assistance program where we have seen in the areas 
where it has been instituted murder rates, crime rates 
generally have had a dramatic decline. So we are hopeful in the 
coming years we will see a couple of successes elsewhere.
    Thank you.
    Ms. Jacobson. And let me just say, Congressman, on 
Colombia, I think you know that our position has been to 
strongly support the Santos administration's efforts on the 
peace process. I know those efforts are ongoing, and the talks 
continue. We hope that they will prove successful, it would be 
enormously important for Colombia, and we will do all that we 
can to support President Santos, who I think, you know, himself 
has said that he hopes things can move along; that he is 
looking for movement. And my guess is that like most peace 
processes, there are frustrations, and there are successes and 
gains. And we will do everything we can to support that process 
moving ahead.
    Mr. Salmon. I thank the gentleman.
    I recognize Mr. Faleomavaega.
    Mr. Faleomavaega. Am I the last of the Mohicans? Thank you, 
Mr. Chairman.
    I appreciate your willingness to work with us on this 
situation dealing with the indigenous communities throughout 
Latin America.
    Would it be possible for the Obama administration to 
announce about 100,000 projected exchanges in education, that 
some provision ought to include to seek getting indigenous 
scholars? Because I have always said that this is probably one 
of the most important aspects if we are ever going to lift the 
status politically, economically, and everything of indigenous 
peoples, and that is through education. And I am sure Mr. 
Feierstein probably has a good grasp of that in terms of how 
the USAID program--I know I don't have the time, but if I could 
get that information, and I will follow up on that as well.
    Ms. Jacobson. Yes, absolutely. I just want to say that we 
have begun exchanges of indigenous students with students from 
American Indian universities in Bolivia and elsewhere. They 
have been incredibly positive, and we want to do a lot more of 
them.
    [The information referred to follows:]

  Written Response Received from the Honorable Roberta S. Jacobson to 
      Question Asked During the Hearing by the Honorable Eni F.H. 
                              Faleomavaega

    Although the Department of State captures a student's nationality 
through his visa application, we do not ask students to identify by 
ethnicity or race. As such, we do not have statistics on the number of 
indigenous students or scholars who study in the United States. We do 
know, however, that minority and indigenous populations are generally 
underrepresented in study abroad overall.
    Through 100,000 Strong in the Americas, we seek to encourage 
greater diversity in international study on all levels--more diverse 
students, more diverse locations of study, and more diverse types of 
degrees and academic institutions. This includes creating more 
opportunities for indigenous students from Latin America and the 
Caribbean to study in the United States, and for Native American 
students in the United States to study in the Western Hemisphere. We 
are reaching out to consortiums of minority serving institutions, 
including Historically Black Colleges and Universities, Hispanic-
Serving Institutions, and Native American Tribal Colleges and 
Universities, to promote a more diverse profile of students who 
participate in educational exchanges.

    Mr. Faleomavaega. I was in Rapa Nui. I don't know if my 
colleagues know where Rapa Nui is. It was last year. It is also 
called Easter Island. I say this because these are my cousins 
that live there. I am from the Samoan Islands. I don't know who 
the idiot was that classified us as Polynesians. But anyway, we 
are people from the islands.
    In a very similar fashion, I wanted to know if you could 
include and make sure that opportunities in education are also 
given. And I have got some real good exchanges with the leaders 
of Chile since Chile has jurisdiction over the people of Rapa 
Nui.
    I want to break away just with a quick question, because 
this issues is going to be tied in quite closely in terms of 
the situation of the drug cartel situation between Mexico and 
the United States. Years ago I shared with my colleagues on the 
committee a statement made by one of the Presidents in Latin 
America to the effect that ``if you Americans would just stop 
your high demand for drugs, then maybe there would be no 
incentive to supply you with this serious situation,'' which 
has become a multibillion-dollar industry. And I believe it was 
2 or 3 years ago that Secretary Clinton commented on the fact 
that if there wasn't so much demand from the United States for 
drugs, then maybe we wouldn't have the cartels and everybody 
doing this, which has become, what, a $20 billion industry now? 
Probably even more.
    And my understanding is that 85 percent of the guns, and I 
suspect most of them assault weapons, found in Mexico come from 
the United States. Does that make any sense? And there are some 
thousands of firearms businesses along the Mexican-U.S. border 
selling these weapons and, unfortunately, killing the Mexicans 
because of these drug cartels that have been going on.
    What is the status of the drug cartel situation between 
Mexico and the United States?
    Ms. Jacobson. Congressman, thank you. And I do think that 
it has been very important that we have talked openly with 
Secretary Clinton and now Secretary Kerry, and certainly the 
President, about our responsibility in this; that shared 
responsibility really does mean shared responsibility. And that 
is why the administration has increased the amount of money 
that they have put toward prevention and treatment.
    It is also important to note that over the last 30 years, 
we have seen dramatic decreases in drug usage in the United 
States, and we think there has been progress on the demand 
side, but obviously more needs to be done. And ultimately that 
is the answer to this problem.
    In the meantime the cooperation that we have had with 
Mexico, obviously the situation in terms of the level of 
violence has been horrific and is not acceptable. But the 
pressure that has been put on the cartels in Mexico is showing, 
is making a difference in terms of their ability to operate, 
the costs they have to incur, but we need to continue working 
on that.
    The cartels have clearly fragmented into more cartels, more 
numbers, and ultimately we want to get to a point where law 
enforcement in the United States and law enforcement in Mexico 
cooperating together can ensure not that drug groups don't 
exist, but that we get that level of violence and the level of 
drugs that they are able to move down to something that law 
enforcement can prosecute and handle.
    Mr. Faleomavaega. Well, it is unfortunate. You are talking 
about 60,000 Mexicans who have died as a result of the drug 
cartel situation since 2006. That is bad.
    Thank you, Mr. Chairman, and I thank our witnesses for 
their testimony.
    Mr. Salmon. Thank you.
    And just to follow up, I don't have a question, but I want 
to thank you both for your participation. I would like to 
summarize some of the things that you all have presented as 
well as some of the priorities of this subcommittee.
    Mr. Faleomavaega, in your last statement, you raise a very 
real concern not just with the United States, but globally with 
the drug cartels and the proliferation of drugs. In our 
conversations over the last few days, I am very encouraged that 
we are doing more to try to help the countries that are 
actually growing the drugs--the cocaine--to transition to other 
kinds of crops. And those are positive things. I think that----
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Salmon. Yes, absolutely.
    Mr. Faleomavaega. They are growing it in California. Do you 
believe this?
    Mr. Salmon. That is right.
    Mr. Faleomavaega. You don't have to go to Mexico. They are 
growing it in California.
    Mr. Salmon. I thank the gentleman.
    But also, you know, there are major challenges throughout 
the region, but also major opportunities. As we look toward 
fostering a healthier relationship with each of these 
countries, our desire is to try to work more closely with those 
governments and institutions, the NGOs that work with those 
governments in some of the countries that are, you know, kind 
of teetering a little bit on their support of that relationship 
with the United States, like Ecuador and possibly Bolivia, and 
see if we can kind of turn the tide with enhanced diplomatic 
dialogue and a presence, and a willingness on our part to try 
to stave off, you know, bad blood.
    Also, as we work with countries like Brazil, who have done 
so many things right when it comes to economic development and 
government reforms, there is still more to be done, obviously, 
but let's praise the good and not always just single out the 
bad.
    As we look at Colombia, we see a phenomenal success story. 
Amazing things have happened there in the last 10 years. In 
fact, if you would have told me when I was in Congress before 
that the Colombia of today would exist, I would have called you 
a liar. But they have done phenomenal things, and we should 
praise that and try to foster future improvement of that 
government and that society.
    As we look at Mexico and the new administration that is in 
place right now, we are cautiously optimistic that some of the 
reforms by the past administration will be built upon, and that 
the fight with the cartels--the war with the cartels--will 
ultimately eradicate them and all of the terrible things that 
go along with cartels; not just the drug proliferation, but 
also the suffering of humanity.
    I think Mr. Faleomavaega correctly points out that there 
are numerous deaths that have occurred in Mexico because of 
cartel activity. And I have got to wonder aloud, is the illegal 
immigration that is happening in the United States, much of it 
from Mexico, simply due to the desire for economic prosperity, 
or is it due to fear over some of the terrible, horrific things 
that are happening in the streets of Mexico because of these 
cartels?
    And we need to do a better job, I think, helping Mexico 
move toward reforms, rule of law, and anticorruption efforts, 
as well as helping their government provide more and better 
economic opportunities for their citizens so that they can feel 
more comfortable staying in their country of origin and 
prospering economically and living without fear.
    And so, these are all things that we look at as we try to 
grow our relationships in the Western Hemisphere. This is not 
to forget Canada and the phenomenal economic relationship and 
ties that we have with them, economic ties that we have with 
them, and the very symbiotic relationship that we have toward 
economic growth and prosperity. Those are all important things 
as we look forward in this committee.
    We share the concerns the gentleman from South Carolina 
expressed about Iran's increased influence in the region, and, 
as he aptly pointed out, there was legislation passed last 
year. We look forward to working with you, Madam Under 
Secretary, toward finding out how we are improving that 
situation, and I believe we will have future hearings that 
focus on that.
    And I thank you both for your wonderful testimony. We look 
forward to working with you, and look forward to working on 
both sides of the aisle. And without anything further, I will 
go ahead and adjourn this meeting. Thank you very much.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            <F-dash>\<triangle><brit-pound><Rx><star>a<Rx> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



           <F-dash>\<triangle><box><brit-pound>t<star><star> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                  <Hoarfrost><acctof><careof>t<star>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
             <triangle><brit-pound><Rx><star>a<Rx><o-times>
                 <line-box>a<star><pound>bs<pound><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
             <triangle><brit-pound><Rx><star>a<Rx><o-times>
        <F-dash><box><careof><box><natural>st<box><careof><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
